           FREEDOM OF INFORMATION ANNUAL REPORT -- FY 2008

I. AGENCY: Office of the Inspector General

REPORT PREPARED BY: Robin Brooks

TITLE: OIG FOIA Supervisor

ADDRESS: 330 Independence Ave SW, Suite 1062, Washington DC 20201

PHONE NUMBER: 202.619.2541

ELECTRONIC ADDRESS FOR THIS REPORT ON THE WORLD WIDE WEB:
http://oig.hhs.gov/foia.html

ADDRESS FOR PAPER COPIES OF THIS REPORT: Same as above

II. HOW TO MAKE A FOIA REQUEST: Please see HHS Guide to Information
Resources at: www.hhs.gov/about/infoguid.html#foia

       2. Brief description of why some requests are not granted: Documents requested
          were protected by an exemption and release would have caused harm to the
          interest protected by the exemption.

III.   ACRONYMS, DEFINITIONS, AND EXEMPTIONS:

       1. Agency-specific acronyms or other terms:

       HHS - U.S. Department of Health and Human Services
       OPDIVs - Operating Divisions of HHS
       OS - Office of the Secretary, HHS
       OASPA - Office of the Assistant Secretary for Public Affairs, HHS
       AoA - Administration on Aging
       ACF - Administration for Children and Families
       AHRQ - Agency for Healthcare Research and Quality
       ATSDR - Agency for Toxic Substances and Disease Registry
       CDC - Centers for Disease Control and Prevention
       FDA - Food and Drug Administration
       HRSA - Health Resources and Services Administration
       IHS - Indian Health Service
       NIH - National Institutes of Health
       OIG – Office of the Inspector General
       OPHS - Office of Public Health and Science
       PHS - Public Health Service
       PRO - Professional Review Organization
PSC - Program Support Center
SAMHSA - Substance Abuse and Mental Health Services Administration

2. Basic terms (from FOIA UPDATE, Summer 1997):

a.    Administrative Appeal – a request to a federal agency asking that it
      review at a higher administrative level a FOIA determination made by the
      agency at the initial request level.
b.    Average Number – the number obtained by dividing the sum of a group
      of numbers by the quantity of numbers in the group. For example, of 3, 7,
      and 14, the average number is 8.
c.    Backlog – the number of requests or administrative appeals that are
      pending at an agency at the end of the fiscal year that are beyond the
      statutory time period for a response.
d.    Component – for agencies that process requests on a decentralized basis,
      a “component” is an entity, also sometimes referred to as an Office,
      Division, Bureau, Center, or Directorate, within the agency that processes
      FOIA requests. The FOIA now requires that agencies include in their
      annual re[port data for both the agency overall and for each principal
      component of the agency.
e.    Consultation – the procedure whereby the agency responding to a FOIA
      request first forwards a record to another agency for its review because
      that agency has an interest in the document. Once the agency in receipt of
      the consultation finishes its review of the record, it responds back to the
      agency that forwarded it. That Agency, in turn, will then respond to the
      FOIA requester.
f.    Exemption 3 Statute – a federal statute that exempts information from
      disclosure and which the agency relies on to withhold information under
      subsection (b)(3) of the FOIA.
g.    FOIA Request – a FOIA request is generally a request to a federal agency
      for access to records concerning another person (i.e., a “third-party”
      request), or concerning an organization, or a particular topic of interest.
      FOIA requests also include requests made by requesters seeking records
      concerning themselves (i.e., “first-party” requests) when those requesters
      are not subject to the Privacy Act, such as non-U.S. citizens. Moreover,
      because all first-party requesters should be afforded the benefit of both the
      access provisions of the FOIA as well as those of the Privacy Act, FOIA
      requests also include any first-party requests where an agency determines
      that it must search beyond its Privacy Act “systems of records” or where a
      Privacy Act exemption applies, and the agency looks to FOIA to afford
      the greatest possible access. All requests which require the agency to
      utilize the FOIA in responding to the requester are included in this Report.
      Additionally, a FOIA request includes records referred to the agency for
      processing and direct response to the requester. It does not, however,
      include records for which the agency has received a consultation from
      another agency. (Consultations are reported separately in Section XII of
       this Report.)
h.     Full Grant - an agency decision to disclose all records in full in response
       to a FOIA request.
i.     Full Denial - an agency decision not to release any records in response to
       a FOIA request because the records are exempt in their entireties under
       one or more of the FOIA exemptions, or because of a procedural reason,
       such as when no records could be located.
j.     Median Number - Median Number – the middle, not average, number.
       For example, of 3, 7, and 14, the median number is 7.
k.     Multi-Track Processing – a system in which simple requests requiring
       relatively minimal review are placed in one processing track and more
       voluminous and complex requests are placed in one or more other tracks.
       Requests granted expedited processing are placed in yet another track.
       Requests in each track are processed on a first in/first out basis.
           i. Expedited Processing – an agency will process a FOIA request on
           an expedited basis when a requester satisfies the requirements for
           expedited processing as set forth in the statute and in agency
           regulations.
           ii. Simple Request – a FOIA request that an agency using multi-track
           processing places in its fastest (non-expedited) track based on the low
           volume and/or simplicity of the records requested.
           iii. Complex Request – a FOIA request that an agency using multi-
           track processing places in a slower track based on the high volume
           and/or complexity of the records requested.
l.     Partial Grant/Partial Denial – in response to a FOIA request, an agency
       decision to disclose portions of the records and to withhold other portions
       that are exempt under the FOIA, or to otherwise deny a portion of the
       request for a procedural reason.
m.     Pending Request or Pending Administrative Appeal – a request or
       administrative appeal for which an agency has not taken final action in all
       respects.
n.     Perfected Request – a request for records which reasonably describes
       such records and is made in accordance with published rules stating the
       time, place, fees (if any) and procedures to be followed.
o.     Processed Request or Processed Administrative Appeal – a request or
       administrative appeal for which an agency has taken final action in all
       respects.
p.     Range in Number of Days – the lowest and highest number of days to
       process requests or administrative appeals.
q.     Time Limits – the time period in the statute for an agency to respond to a
       FOIA request (ordinarily twenty working days from receipt of a perfected
       FOIA request).

3. Include the following concise descriptions of the nine FOIA exemptions:
       a. Exemption 1: classified national defense and foreign relations
          information
             b. Exemption 2: internal agency rules and practices
             c. Exemption 3: information that is prohibited from disclosure by
             another federal law
             d. Exemption 4: trade secrets and other confidential business
             information
             e. Exemption 5: inter-agency or intra-agency communications that are
             protected by legal privileges
             f. Exemption 6: information involving matters of personal privacy
             g. Exemption 7: records or information compiled for law enforcement
             purposes, to the extent that the production of those records (A) could
             reasonably be expected to interfere with enforcement proceedings, (B)
             would deprive a person of a right to a fair trial or an impartial
             adjudication, (C) could reasonably be expected to constitute an
             unwarranted invasion of personal privacy, (D) could reasonably be
             expected to disclose the identity of a confidential source, (E) would
             disclose techniques and procedures for law enforcement investigations or
             prosecutions, or would disclose guidelines for law enforcement
             investigations or prosecutions, or (F) could reasonably be expected to
             endanger the life or physical safety of any individual
             h. Exemption 8: information relating to the supervision of financial
             institutions
             i. Exemption 9: geological information on wells

IV.      EXEMPTION 3 STATUTES (See Chart)

V.       FOIA Requests (See Chart)
      A. Numbers of initial requests (line 1 + line 2 - line 3 = line 4): (See chart)

             1. Number of requests pending as of start of fiscal year: *0

             2. Number of requests received in fiscal year: 124

             3. Number of requests processed in fiscal year: 19

             4. Number of requests pending as of end of fiscal year: 15

      B. (1) Disposition of FOIA Requests: (See chart)

             1. Number of full grants: 21

             2. Number of partial grants: 9

             3. Number of full denials based on Exemptions: 7

             4. Number of Full Denials Based on Reasons Other than Exemptions
                 (Total):
                   a. No records: 25
                   b. Referrals: 25
                   c. Request withdrawn: 8
                   d. Fee-related reason: 1
                   e. Records not reasonably described: 0
                   f. Improper FOIA request for some other reason: 7
                   g. Not an agency record: 3
                   h. Duplicate request: 2
                   i. Other (specify): 1

     B. (2) Disposition of FOIA Requests – Other (See chart) Records on OIG website

     B. (3) Disposition of FOIA Requests - Number of times exemptions applied
         (See Chart)

                          Exemption 1:
                          Exemption 2: 5
                          Exemption 3: 1
                          Exemption 4: 6
                          Exemption 5: 3
                          Exemption 6: 9
                          Exemption 7(A):   8
                          Exemption 7(B):   0
                          Exemption 7(C):   10
                          Exemption 7(D):   0
                          Exemption 7(E):   2
                          Exemption 7(F):   0
                          Exemption 8: 0
                          Exemption 9: 0

VI. ADMINISTRATIVE APPEALS OF INITIAL DETERMINATIONS OF
       FOIA REQUESTS

     A. Received, Processed and Pending Administrative Appeals _N/A__
        1. Number of appeals pending as of start of Fiscal Year
        2. Number of appeals received in Fiscal Year:
        3. Number of appeals processed in Fiscal Year:
        4. Number appeals pending as of end of Fiscal Year

     B. Disposition of Administrative Appeals – All Processed Appeals _N/A_
        1. Number affirmed on appeal
        2. Number partially affirmed and partially reversed/remanded on appeal
        3. Number completely reversed/remanded on appeal
        4. Number of appeals closed for other reasons

     C. (1) Reasons for denial on Appeal – Number of Times Exemptions applied
                          Exemption 1:
                          Exemption 2:
                          Exemption 3:
                          Exemption 4:
                          Exemption 5:
                          Exemption 6:
                          Exemption 7
                               Exemption 7(A):
                                Exemption 7(B):
                                Exemption 7(C):
                                Exemption 7(D):
                                Exemption 7(E):
                                Exemption 7(F):
                          Exemption 8: _0
                          Exemption 9: 0

       C. (2) Reasons for denial on Appeal – Reasons other than exemptions

                 a.   No records:
                 b.    Referrals:
                 c.   Request withdrawn:
                 d.   Fee-related reason:
                 e.   Records not reasonably described:
                 f.   Improper request for other reason:
                 g.    Not an agency record:
                 h.   Duplicate request:
                 i.    Request in litigation:
                 j.    Appeal based solely on denial of request for expedited
                      processing:

        C. (3) Reasons for denial on Appeal - Other
                 Administrative closures, records previously released to appellant

        C. (4) Response time for administrative appeals
                 a. Median number of days:
                 b. Average number of days:
                 c. Lowest Number of days:
                 d. Highest number of days:

        C. (5) Ten Oldest Pending Appeals (See Chart)

VII.   FOIA REQUESTS: RESPONSE TIME FOR PROCESSED AND PENDING
       REQUESTS
       A. Processed Requests – Response Time for All Processed Perfected
          Requests
        B. Processed Requests – Response Time for Perfected Requests in Which
           Information Was Granted
        C. Processed Requests – Response Time in Day Increments
        D. Pending Requests – All Pending Perfected Requests
        E. Pending Requests – Ten Oldest Pending Perfected Requests

VIII.   REQUESTS FOE EXPEDITED PROCESSING AND REQUESTS FOR
        FEE WAIVER (See Chart)
        A. Requests foe Expedited Processing
        B. Requests for Fee Waiver

IX.     FOIA PERSONNEL AND COSTS (See Chart)
        A. Personnel
        B. Costs

X.      FEES COLLECTED FOR PROCESSING REQUESTS (See Chart)

XI.     FOIA REGULATIONS
        http://www.hhs.gov/foia/45cfr5.html.

XII.    BACKLOGS, CONSULTATIONS, AND COMPARISONS
        A. Backlogs of FOIA Requests and Administrative Appeals (See Chart)
        B. Consultations on FOIA Requests – Received, Processed, and Pending
        Consultations (See Chart)
        C. Consultations on FOIA Requests – Ten Oldest Consultations Received
        from Other Agencies and Pending at Your Agency (See Chart)
        D. Comparison of Numbers of Requests from Previous and Current Annual
        Report – Requests Received, Processed, and Backlogged (See Chart)
        E. Comparison of Numbers of Administrative Appeals from Previous and
        Current Annual Report – Appeals Received, Processed, and Backlogged
        (See Chart)
      IV. Exemption 3 Statutes

                                                 Number of      Total Number
                Type of
                                      Case       Times Relied   of Times
Statute         Information
                                      Citation   upon per       Relied upon by
                Withheld
                                                 Component      Agency
42 USCA § 262   Biological Products                    1               1
Part V A
Received, Processed and Pending FOIA Requests


                   Number of          Number of            Number of      Number of
                   Requests Pending   Requests             Requests       Requests Pending
                   as of Start of     Received in Fiscal   Processed in   as of End of
                   Fiscal Year        Year                 Fiscal Year    Fiscal Year
OS
ACF
AOA
CMS
OIG                       *0                    124              109             15
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total

* Partial Year – New FOIA Requester Service Center – May 19, 2008
VB1
Disposition of all FOIA Requests – All Processed Requests



             Number     Number    Number of                Number of Full Denials Based on Reasons Other than Exemptions
              of Full   of        Full Denials
             Grants     Partial   Based on
                        Grants/   Exemptions
                        Partial
                        Denials

                                                 No        All Records   Request     Fee-      Records not   Improper    Not      Duplicate   Other      TOTAL
                                                 Records   Referred to   Withdrawn   Related   Reasonably    FOIA        Agency   Request     *Explain
                                                           Another                   Reason    Described     Request     Record               in chart
                                                           Component                                         for Other                        below”
                                                           or Agency                                         Reason


OS
ACF
CMS
OIG            21          9           7           25          25            8          1           0            7          3         2           1       109
OPHS
 AHRQ
 CDC
 FDA
 HRSA
IHS
NIH
 SAMHSA
 PHS Total
HHS Total
V B. (2) Disposition of FOIA Requests – “Other” Reasons for “Full Denials Based on
       Reasons Other than Exemptions” from Section V, B (1) Chart



                             Description of “Other”           TOTAL
Component                    Reasons for Denials from
                             Chart B (1) & Number of
                             Times Those Reasons Were
                             Relied upon
OS
ACF
CMS
OIG                          Records on OIG Webpage               1
OPHS
 AHRQ
CDC
FDA
HRSA
IHS
NIH
SAMHSA
PHS Total
HHS Total
            V. B. (3) Disposition of FOIA Requests – Number of Times Exemptions Applied




            Ex.   Ex.   Ex.   Ex.   Ex.   Ex.   Ex.     Ex.      Ex.     Ex.      Ex.     Ex.    Ex.   Ex.
            1     2     3     4     5     6     7(A)    7(B)     7(C)    7(D)     7(E)    7(F)   8     9

OS
ACF
CMS
OIG                4     1     4     3     8      8        0        7       0       2       0     0     0
OPHS
 AHRQ
CDC
FDA
HRSA
IHS
NIH
SAMHSA
PHS Total
HHS Total
 VII. A FOIA REQUESTS: RESPONSE TIME FOR PROCESSED AND PENDING REQUESTS

 Single Track only




                        SIMPLE                                COMPLEX                      EXPEDITED PROCESSING


             Median    Average Lowest    Highest   Median    Average Lowest    Highest   Median    Average   Lowest    Highest
             Number    Number Number     Number    Number    Number Number     Number    Number    Number    Number    Number of
             of Days   of Days of Days   of Days   of Days   of Days of Days   of Days   of Days   of Days   of Days   Days

OS
ACF
AOA
CMS
OIG              -        -       -         -         4        9.3      1        82         -         -         -           -
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
 VII. B Processed Rests - Response Time for Perfected Requests in Which Information Was Granted




                         SIMPLE                                   COMPLEX                         EXPEDITED PROCESSING


              Median    Average Lowest      Highest   Median    Average Lowest      Highest   Median    Average   Lowest    Highest
              Number    Number Number       Number    Number    Number Number       Number    Number    Number    Number    Number of
              of Days   of Days of Days     of Days   of Days   of Days of Days     of Days   of Days   of Days   of Days   Days

OS
ACF
AOA
CMS
OIG              -         -         -         -         6        9.3        1         36         -        -         -           -
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 HIS
 NIH
 SAMHSA
 PHS Total
HHS Total
VII. C Processes Requests – Response Time in Day Increments

                                           Simple Requests
           1–20    21 – 40   41 – 60   61 – 80 81- 100 101-     121-   141-   161-   181-   201-   301-   401+
           Days    Days      Days      Days     Days     120    140    160    180    200    300    400    Days   TOTAL
                                                         Days   Days   Days   Days   Days   Days   Days
OS
ACF
AOA
CMS
  OIG                                                                                                              0
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 HIS
 NIH

SAMHSA
PHS
Total
HHS
Total
VII. C Processes Requests – Response Time

                                                 Complex Requests
           1–20   21 – 40   41 – 60   61 – 80   81- 100 101-     121-   141-   161-   181-   201-   301-   401+
           Days   Days      Days      Days      Days    120      140    160    180    200    300    400    Days   TOTAL
                                                        Days     Days   Days   Days   Days   Days   Days
OS
ACF
AOA
CMS
OIG          94      13        2         -        -        -       -      -      -      -      -      -      -     109
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 HIS
 NIH

SAMHSA
PHS
Total
HHS
Total
VII. C Processes Requests – Response Time
                                          Requests Granted Expedited Processing
           1–20   21 – 40   41 – 60   61 – 80 81- 100 101-        121-     141-   161-   181-   201-   301-   401+
           Days   Days      Days      Days    Days       120      140      160    180    200    300    400    Days   TOTAL
                                                         Days     Days     Days   Days   Days   Days   Days
OS
ACF
AOA
CMS
  OIG        -        -        -         -        -        -        -        -      -      -      -      -      -      0
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 HIS
 NIH

SAMHSA
PHS
Total
HHS
Total
         VII D Pending Requests –All Pending Perfected Requests



         Simple                          *Complex                        Expedited Processing


         Number    Median     Average    Number     Median    Average    Number    Median       Average
         Pending   Number     Number     Pending    Number    Number     Pending   Number       Number
                   Of Days    Of Days               Of Days   Of Days              Of Days      Of Days
OS
ACF
AOA
CMS
  OIG       0          0         0          15         9          25.1      0          0           0
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH

SAMHSA
 PHS
Total
HHS
Total
         *Single Track Only
            VII E Pending Requests- Ten Oldest Pending Perfected Requests




         110th      9th          8th    7th       6th       5th       4th       3rd       2nd       Oldest
          Oldest                                                                                    Request
          Request                                                                                   And
          And                                                                                       Number
          Number                                                                                    of Days
          of Days                                                                                   Pending
          Pending
OS

ACF
AOA
CMS
 OIG      9/19/08   9/19/08   9/17/08    9/4/08    9/2/08   8/28/08   8/27/08   8/19/08   6/13/08   6/6/08
             7         7         9         18        20        23        24        30        77       82
OPHS
AHRQ
CDC
FDA
HRSA
IHS
NIH

SAMHSA
 PHS
Total
HHS
Total
VIII A Requests for Expedited Processing




              Number         Number        Median       Average      Number
              Granted        Denied        Number of    Number of    Adjudicated
                                           Days to      Days to      Within Ten
                                           Adjudicate   Adjudicate   Calendar
                                                                     Days
OS
ACF
AOA
CMS
   OIG              0             5             6           5.4           5
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
VIII. B Requests for Fee Waiver

                 Number           Number    Median       Average
                 Granted          Granted   Number of    Number of
                                            Days to      Days to
                                            Adjudicate   Adjudicate
OS
ACF
AOA
CMS
     OIG                1               8         9           7.7
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
IX. B. Costs




                        Personnel                                          COSTS
               Numbe     Number of     Total Number   Processing Costs   Litigation-Related   Total Costs
               r of      “Equivalent   of Full-Time                      Costs
               “Full-    Full-Time     FOIA Staff “
               Time      FOIA
               FOIA      Employees”
               Emplo
OS             yees”
OS
ACF
AOA
CMS
OIG              3            1             4              $70750                -                $70750
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH

SAMHSA
 PHS
Total
HHS Total
Part X
Fees Collected



                         Total Amount of Fees
                                                    Percentage of Total Costs
                         Collected
OS
ACF
AOA
CMS
        *OIG                       $1898                     2.685%
 OPHS
  AHRQ
  CDC
  FDA
  HRSA
  IHS
  NIH
  SAMHSA
  PHS Total
HHS Total
*Data based upon 4 months of processing requests.
Part XII A
Backlogs


              Number of Backlogged    Number of Backlogged
              Requests as of End of   Appeals as of End of
              Fiscal Year             Fiscal Year

OS
ACF
AOA
CMS
OIG                       3                      0
 OPHS
  AHRQ
  CDC
  FDA
  HRSA
  IHS
  NIH
  SAMHSA
  PHS Total
HHS Total
XII B
Consultations on FOIA Requests Received, Pr0cessed, and Pending


                 Number of         Number of        Number of        Number of
                 Consultations     Consultations    Consultations    Consultations
                 Received from     Received from    Received from    Received from
                 Other Agencies    Other Agencies   Other Agencies   Other Agencies
                 that Were         During the       that Were        that Were
                 Pending at        Fiscal Year      Processed by     Pending at
                 Your Agency                        Your Agency      Your Agency
                 as of Start of                     During the       as of End of the
                 the Fiscal Year                    Fiscal Year      Fiscal Year
OS
ACF
AOA
CMS
OIG                     0                2                2                 0
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
            XII C Consultations on FOIA Requests- Ten Oldest Consultations Received from Other
            Agencies and Pending at your Agency




         110th      9th          8th   7th       6th       5th       4th       3rd       2nd       Oldest
          Oldest                                                                                   Request
          Request                                                                                  And
          And                                                                                      Number
          Number                                                                                   of Days
          of Days                                                                                  Pending
          Pending
OS
ACF
OAO
CMS
  OIG        0            0     0            0         0         0         0         0         0      0
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH

SAMHSA
 PHS
Total
HHS
Total
XII D 1
Comparison Numbers of Requests from Previous and Current Annual Report - Requests
Received, Processed, and Backlogged


                Number of Requests Received       Number of Requests Processed

                Number           Number           Number           Number
                Received         Received         Processed        Processed
                During Fiscal    During Fiscal    During Fiscal    During Fiscal
                Year from        Year from        Year from        Year from
                Last Year’s      Current          Last Year’s      Current
                Annual Report    Annual Report    Annual Report    Annual Report

OS
ACF
AOA
CMS
OIG                    0               124               0              109
 OPHS
  AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
XII D 3 FOR 2009


                   Column 1                           Column 2

                      Number of Backlogged Requests       Number of Backlogged Requests
                      as of End of the Fiscal Year from   as of End of the Fiscal Year from
                           Previous Annual Report              Current Annual Report
OS
ACF
AOA
CMS
      OIG                            0                                   3
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
XII E 1
Comparison of Numbers of Administrative Appeals from Previous and Current Annual
Report – Appeals Received, Processed, and Backlogged


                Number of Appeals Received        Number of Appeals Processed

                Number           Number           Number           Number
                Received         Received         Processed        Processed
                During Fiscal    During Fiscal    During Fiscal    During Fiscal
                Year from        Year from        Year from        Year from
                Last Year’s      Current          Last Year’s      Current
                Annual Report    Annual Report    Annual Report    Annual Report

OS
ACF
AOA
CMS
OIG                   N/A              N/A              N/A              N/A
 OPHS
 AHRQ
 CDC
 FDA
 HRSA
 IHS
 NIH
 SAMHSA
 PHS Total
HHS Total
